Codes to Determine Reportable Payment Card Transactions, dated August 2, 2004. We
interviewed staff with the IRS' Office of Federal, State and Local Governments to confirm our
understanding of the reporting requirements placed on Federal agencies.

         We interviewed staff in Finance to identify procedures for reporting vendor payments.
We obtained a listing of the budget object classes used by the Agency and compared them to IRS
criteria to determine those containing payments reportable to the IRS. We obtained a listing of
payments made during calendar year 2007 and compared them to budget object classes and IRS
criteria to identify the universe of vendors who received payments that should have been
reported. We compared this universe to a listing of Form 1099-MISCs prepared by Finance to
determine whether the payments were properly reported to the IRS. We selected a judgmental
sample of 10 Form 1099-MISCs that did not agree to amounts in the Agency’s financial
management system to determine whether systematic reasons existed for the differences.

        We interviewed staff in the Division of Operations-Management and Finance in order to
identify Agency procedures regarding tax reporting for payments to backpay recipients. We
selected a judgmental sample of 10 backpay cases involving 51 discriminatees paid through
Finance during calendar year 2007. We compared payment instructions sent by the Regional
Offices to Finance with the payments that were actually made and the tax forms that were
prepared to report those payments to determine whether the payments were properly reported.

        We conducted this review from January through March 2008. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

         The Internal Revenue Code (IRC) places three primary obligations on taxpayers: (1) to
file timely returns; (2) to make accurate reports on those returns; and (3) to pay the required tax
voluntarily and timely. When taxpayers do not meet these obligations, the tax gap results. The
tax gap is defined as the aggregate amount of true tax liability, which is the amount of tax that
would be determined for the tax year if all relevant aspects of the tax law were correctly applied
to all relevant facts of the taxpayer's situation, not paid voluntarily and timely.

        The IRS reported that the tax gap was $290 billion in 2001. The majority of the tax gap
is due to underreporting of taxes by individuals. The IRS reported that the percentage of
taxpayer income reporting compliance increases as the level of reporting or withholding
increases.




                                             2
RESULTS

Vendor Payments

        IRC Section 6041A requires that payments of $600 or more made by a Federal executive
agency in exchange for performance of services be reported on information returns that include
the service recipient's taxpayer identification number. The purpose of the requirement in Section
6041A is to identify unreported income. In 1997, this section was amended to require Federal
agencies to report payments for services provided by corporations. The legislative history for
this change states that it will improve compliance because additional, small-dollar value
contracts will be reported. This requirement includes purchase card transactions. IRC Section
6041 requires information reporting by a Federal executive agency for other payments such as
rent and interest.

       Payments for nonemployee compensation are reported on Form 1099-MISC. Examples
include payments for professional service fees, such as fees to attorneys, accountants, architects,
and contractors, and payments for services, including payment for parts or materials used to
perform services if supplying the parts or materials was incidental to providing the service.
Reporting on the Form 1099-MISC is generally not required for payment of bills for
merchandise, telephone, freight, storage, and similar charges. Rents are also reported on Form
1099-MISC. Reportable rental payments include those for office space, parking, and equipment.
For calendar year 2007, the value of the services reported by the Agency on Form 1099-MISCs
to vendors totaled $11,058,238.

        IRS Revenue Procedure 2004-43 provides an optional procedure that payors may use in
determining whether purchase card transactions are reportable under section 6041 or section
6041A of the IRC. Under that procedure, the payor may rely on the Merchant Category Code
assigned to the merchant/payee in determining whether the merchant is subject to information
reporting. However, the revenue procedure also states that if the payor determines that the
Merchant Category Code does not reflect the actual nature of the transaction, the payor may
determine whether information reporting is required based on the actual nature of the transaction.

Vendors without Form 1099-MISC

       We identified 247 vendors who received payments from the Agency in excess of $600 for
which the Agency should have prepared a Form 1099-MISC. Of those, the Agency did not
prepare a Form 1099-MISC for 19 vendors for services totaling $317,771.

Items in Budget Object Class 25

       Staff in Finance stated that the universe of reportable vendors is based on payments made
to vendors in Budget Object Class 25 – Other Contractual Services. The Agency did not prepare
a Form 1099-MISC for two vendors in Budget Object Class 25. One was a vendor who received
$1,438 in payments for interpreter fees. Staff in Finance stated that the vendor is a resident of
Puerto Rico and was not subject to Federal income tax. The IRS, however, requires that if a
taxpayer has no U.S. filing requirement, but has income that is effectively connected with a trade



                                             3
or business, the taxpayer must file forms with the IRS to report self-employment income and, if
necessary, pay self-employment tax. The instructions for Form 1099-MISC state that generally
income placed in box 7 (nonemployee compensation) is subject to self-employment tax. The
other vendor was paid $35,493 for travel agency fees.

Items outside of Budget Object Class 25

        We identified 14 budget object classes outside of Budget Object Class 25 that are
services and should be reported on a Form 1099-MISC. They include rental for copiers and
other equipment, courier services, lodging, and printing services. Within those 14 budget object
classes, we identified payments to eight vendors totaling $243,693 for which the Agency did not
prepare a Form 1099-MISC.

Purchase Card Transactions

          Nine vendors that had only purchase card transactions that were recorded in Budget
Object Class 25, totaling $37,147, did not receive a Form 1099-MISC. Staff in Finance noted
that purchase card transactions are entered into the Agency's financial system on a daily basis
and are given a budget object class based on the Merchant Category Code. According to
Finance, program offices review transactions and request a correction to the budget object class
if it is recorded incorrectly. Payments to these nine vendors had the budget object class changed
from one that was not reportable to one that should be reported. Because the Agency determined
that those transactions involved services, the Agency should have reported those payments to the
IRS.

Accuracy of Form 1099-MISCs

       We identified 28 vendors for whom the payment data in the financial system did not
match the amount reported on the Form 1099-MISC. A total of $24,176 was overreported for 14
vendors and a total of $83,428 was underreported for 14 vendors. For the items that we
judgmentally selected for further review, the following issues were found:

• For one vendor, the payments were understated by $74,903. The majority of the difference
  was due to the rental payments for machines being excluded.

• For two vendors, purchase card transactions totaling $4,651 were not included on the Form
  1099-MISC that each received. For both vendors, the budget object class of the transaction
  was changed from one that was not reportable to one that is reportable.

• For two vendors, a purchase card transaction was double-counted in the calculation of the
  amount to report, resulting in $4,305 being overreported.

• For one vendor, payments of $3,209 that were moved to the budget object class for supplies
  were reported on the Form 1099-MISC, resulting in an overreporting.




                                            4
Vendors without a Form 1099-INT

       Section 1.6041-1 of the IRS regulations states that an information return must be
prepared for interest aggregating $600 or more. During 2007, the Agency paid $1,150 to one
vendor as interest incurred under the Prompt Payment Act. The Agency did not prepare a Form
1099-INT for the payment.


SUGGESTIONS

We suggest that the Finance Chief:

1. Develop procedures to determine which budget object classes contain services.

2. Develop procedures to ensure that all applicable vendors payments categorized in budget
   object classes for services are reported.




                                           5
